No.

IN THE
SUPREME COURT OF THE UNITED STATES

FRANK R. STEVENSON
(Your Name)

— PETITIONER

VS.
THE PEOPLE OF THE STATE OF NEW YORK _ RESPONDENT(S)
PROOF OF SERVICE
do swear or declare that on this date,
I, FRANK R. STEVENSON
September 10,
, 20_21, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Hon. Eric Gonzalez, District Attorney, Kings County, 350 Jay
Street, Brooklyn, New York 11201.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 10,

2021

dZ.
(Signature)

Additional material
from this filing is
available in the
Clerk's Office.

